7505

Supreme Court. U.S.
FILED

DEC 2 8 202U

1

OFFICE OF THE CLERK

•

IN THE
SUPREME COURT OF THE UNITED STATES

OLIN GASKINS,
Petitioner,

VS.
STATE OF WEST VIRGINIA,
Respondent
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
PETITION FOR A WRIT OF CERTIORARI

Olin Gaskins
One Mountainside Way
Mount Olive, WV 25185

ORIGINAL

QUESTION(S) PRESENTED
DID THE SUPREME COURT OF APPEALS OF WEST VIRGINIA VIOLATE
CLEARLY ESTABLISHED FEDERAL LAW AND PETITIONER'S FOURTEENTH
AMENDMENT RIGHTS WHEN IT FAILED TO APPLY A NEW LAW WHICH EXISTED
PRIOR TO PETITIONER'S FINAL DECISION ON DIRECT APPEAL?

LIST OF PARTIES
El

□

All parties appear in the caption of the case on the cover page.
All parties do not appear in the caption of the case on the cover page. A list of all parties
to the proceeding in the court whose judgment is the subject of this petition is as follows:

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW

□

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

□
□
□

to

reported at T enter site code here ]: or.
has been designated for publication but not yet reported; or
is unpublished.

The opinion of the United States district court appears at Appendix___to
the petition and is

□
□
□

reported at [ enter site code here ]; or,
has been designated for publication but not yet reported; or
is unpublished.

For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
m
□
□

reported at 2020 W.Va. LEXIS 457 (2020); or,
has been designated for publication but not yet reported; or,
is unpublished.

The opinion of the [ enter any other tier court here ] court appears at Appendix___to
the petition and is

□
□
□

reported at [ enter site code here ]; or,
has been designated for publication but not yet reported; or,
is unpublished.

1 of 5

JURISDICTION

□

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was [ enter date here. ]

□
□
□

No petition for rehearing was timely filed in my case.
A timely petition for a rehearing was denied by the United States Court of
Appeals on the following date: [ enter date here ], and a copy of the Order
denying rehearing appears at Appendix___ .
An extension of time to file the petition for a writ of certiorari was granted to and
including [ enter date here ] on [ enter date here ] in Application No. [ enter
application no. here. ]
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

0

For cases from state courts:
The date on which the highest state court decided my case was June 25, 2020.
0

□

A timely petition for rehearing was thereafter denied on the following
date:
October 9, 2020 and a copy of the Order denting rehearing appears at
Appendix B .
An extension of time to file the petition for a writ of certiorari was granted
to and including [ enter date here ] on [ enter date here ] in Application
No. [ enter application no. here. ]

The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2 of 5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

UNITED STATES CONSTITUTIONAL AMENDMENT XIV
All Persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of laws.
WEST VIRGINIA CODE § 61 -11 -18
See Appendix C, Senate Bill 765.

STATEMENT OF THE CASE

In the January term of 2018, Petitioner was indicted on possession of a firearm by a
prohibited person (W.Va Code § 61-7-7(b)(2)). Petitioner was found guilty by jury in March
2018. On March 29, 2018, the State of West Virginia filed a Recidivist Information. The State
alleged that in 1997, Petitioner was convicted of delivery of cocaine, and a second offense of
delivery of cocaine in 2002. On May 30, 2018, Petitioner was sentenced to life with the
possibility of parole after fifteen (15) years. Petitioner appealed this ruling to the Supreme Court
of Appeals, West Virginia. On June 25, 2020, the SCAWV affirmed the circuit court's decision.
Petitioner then filed Petitioner for Rehearing based on misapplication of precedent and changing
trends. On October 9, 2020, the SCAWV refused this petition in a split decision. Petitioner's
instant Certiorari is in response to this refusal.

3 of 5

REASON FOR GRANTING THE PETITION
The Fourteenth Amendment of the United States Constitution guarantees individuals the
right to due process of law. The Supreme Court of Appeals of West Virginia denied the
Petitioner this right by violating clearly established federal law.
During the 2020 Regular Session of the West Virginia Legislature, Senate Bill 765,
amending WV Code § 61-11-18 and 19, was introduced and subsequently went into effect on
June 5, 2020. (Appx. C). The Petitioner was in the Supreme Court of Appeals of West Virginia
on Direct Appeal when this Bill went into effect, but his final Memorandum Decision was
entered on June 25, 2020. (Appx. A). This Court has directly stated:
[w]e therefore hold that a new rule for the conduct of criminal prosecutions is to
be applied retroactively to all cases, state or federal, pending on direct review or
not yet final, with no exception for cases in which the new rule constitutes a
“clear break” with the past.
Griffith v. Kentucky 479 U.S. 314, 328, 107 S.Ct. 708, 93 L.Ed.2d 649, 661 (1987).
The implications for Petitioner is that he currently has a life sentence, but the amended
WV code § 61-11-18 would negate his recidivism because Petitioner's first crime occurred in
1997 and his third crime occurred in 2018. “[A]n offense which would otherwise constitute a
qualifying offense for purposes of this subsection [(d)] and subsection (b) of this section shall
not be considered if more than 20 years have elapsed between that offense and the conduct
underlying the current charge.” WV Code § 61-11-18 (emphasis added).

CONCLUSION
Petitioner avers that this new law directly applies to his case, and, because of its effective
date, should have been applied to his Direct Appeal.

4 of 5

The petition for a writ of certiorari should be granted.

Respectfully submitted,

6l~ U<-

Olin Gaskins, pro se
Date:

5 of 5

